<html>
<title> - IDEOLOGY AND TERROR: UNDERSTANDING. THE TOOLS, TACTICS, AND TECHNIQUES OF VIOLENT EXTREMISM</title>
<body><pre>[Senate Hearing 115-309]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-309

                   IDEOLOGY AND TERROR: UNDERSTANDING
        THE TOOLS, TACTICS, AND TECHNIQUES OF VIOLENT EXTREMISM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             JUNE 14, 2017

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
 
                       U.S. GOVERNMENT PUBLISHING OFFICE                    
27-393PDF                        WASHINGTON : 2018                     
           
 -----------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="aec9dec1eecddbdddac6cbc2de80cdc1c380">[email&#160;protected]</a>
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
                    Daniel P. Lips, Policy Director
               Margaret E. Daum, Minority Staff Director
           Julie G. Klein, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     3
    Senator Hassan...............................................    17
    Senator Harris...............................................    18
    Senator Heitkamp.............................................    21
    Senator Peters...............................................    24
    Senator Daines...............................................    30
Prepared statements:
    Senator Johnson..............................................    35
    Senator McCaskill............................................    36

                               WITNESSES
                        Wednesday, June 14, 2017

Ayaan Hirsi Ali, Research Fellow, Hoover Institution, Stanford 
  University.....................................................     5
Asra Q. Nomani, Co-Founder, Muslim Reform Movement...............     6
John Lenczowski, Ph.D., Founder and President, The Institute of 
  World Politics.................................................     8
Hon. Michael E. Leiter, Former Director, National 
  Counterterrorism Center........................................     9

                     Alphabetical List of Witnesses

Hirsi Ali, Ayaan:
    Testimony....................................................     5
    Prepared statement...........................................    41
Leiter, Hon. Michael E.:
    Testimony....................................................     9
Lenczowski, John Ph.D.:
    Testimony....................................................     8
    Prepared statement...........................................   110
Nomani, Asra Q.:
    Testimony....................................................     6
    Prepared statement...........................................    65

                                APPENDIX

Sikh Coalition statement submitted for the Record................   127
Responses to post-hearing questions for the Record
    Ms. Hirsi Ali................................................   130
    Ms. Nomani...................................................   130
    Mr. Lenczonwski..............................................   151
    Mr. Leiter...................................................   155

 
                   IDEOLOGY AND TERROR: UNDERSTANDING.
        THE TOOLS, TACTICS, AND TECHNIQUES OF VIOLENT EXTREMISM

                              ----------                              


                        WEDNESDAY, JUNE 14, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Daines, McCaskill, 
Tester, Heitkamp, Peters, Hassan, and Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Before we start this hearing, let me just 
ask everybody in the audience to be respectful, no 
disturbances. This will be the warning. If there are further 
disturbances, if the witnesses are interrupted, if the 
questions are interrupted, we will remove you. The Capitol 
Police will be instructed to do so, so I might as well--before 
we even start the hearing, let me lay that warning out. No 
disturbances. You can sit here, and you can listen to the 
hearing. We are trying to lay out a reality here, and if you 
are not willing to listen, you can go elsewhere. So, that is 
the only warning. The next disturbance and you will be ushered 
outside of here.
    Good morning. This hearing is called to order.
    I want to thank the witnesses for your testimony, for 
taking the time, and for your courage.
    The mission of this Committee is pretty straightforward: to 
enhance the economic and national security of America, and to 
promote more efficient, effective, and accountable government. 
The Committee really is in many respects two committees in one 
from the House side. We have homeland security and we have 
governmental affairs. This hearing is really focusing on the 
homeland security side of the Committee structure, and within 
that structure, we have four priorities: border security; 
cybersecurity; protecting our critical infrastructure; and 
countering extremism and violence in any form, including 
Islamist terrorism.
    What we try and do in this Committee is through this 
hearing process lay out a reality. I come from a manufacturing 
background, solved a lot of problems. The only way you solve a 
problem is to first admit you have one: properly define it, 
properly describe it, gather the information, and admit to the 
reality. There is no way anybody can deny we have a problem 
worldwide in terms of extremism and violence.
    We witnessed it just a few hours ago on a practice field 
for a charity baseball event. And, let me acknowledge first of 
all, our prayers are with those victims: Congressman Scalise, 
the staff member, and the two members of the Capitol Hill 
security detail that were wounded, and even having been 
wounded, they continued to return fire and prevented a far 
greater tragedy.
    The appreciation we owe to the men and women in public 
safety, that every day that they step out of the threshold of 
their door, they are literally putting their lives on the line, 
that was demonstrated again this morning.
    So, I appreciate anybody who is willing to step up to the 
plate, defend us, defend our freedom, protect public safety, 
but also stand up and tell the truth and describe reality in a 
world that is very dangerous, in a world that does not want to 
hear the truth and reality.
    Now, previous hearings on this subject have talked about 
the way radical Islamist terrorists are using social media. 
Particularly the Islamic State of Iraq and Syria (ISIS) has 
become incredibly effective at poisoning the minds of young 
people around the world to engage in these acts of terror and 
depravity.
    We have held hearings on trying to understand what are the 
motives. What motivates this? What are they trying to 
accomplish?
    We have learned that in America what has been incredibly 
important throughout our history: we are a Nation of 
immigrants. We have welcomed them. They have made this Nation 
great. But, what has made this Nation great is people that have 
come to this country have come embracing the idea and promise 
of America, to become American, not rejecting their past 
culture. We never asked that. But, we do ask them to come and 
accept constitutional law to be able to take advantage of this 
wonder and marvel we call America and the American economy.
    We have certainly learned how important it is for us in 
government and our public safety officials to positively engage 
in communities, every community, to make sure that people are 
welcome, they will assimilate.
    It is not perfect. It has not completely worked. I think we 
have probably done a better job, as we have witnessed recently, 
whether it is in Brussels, Paris, or places in Europe where the 
assimilation has not been as effective. But, it is far from 
perfect here in America, and we will be talking about that.
    So, again, I just want to say again I appreciate the 
courage of our witnesses, their willingness to step up to the 
plate, and I just implore everybody to have an open mind. We 
need to understand the truth, we need to understand the reality 
if we have any hope of solving this problem. We are in a 
generational struggle at least. We have to get to a point where 
people can feel free and safe to go practice in the morning on 
a baseball field or walk a street or raise their family. That 
is what we are trying to accomplish. It is not going to be 
easy, but the only way we do it is if we are willing to have 
the courage to face these truths and have the courage to 
actually tell them.
    So, again, thank you for having that courage, and with 
that, I will turn it over to Senator McCaskill after I do ask 
unanimous consent to enter my written statement in the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 35.
---------------------------------------------------------------------------

           OPENING STATEMENT OF SENATOR MCCASKILL\2\

    Senator McCaskill. I think all of us are waiting to exhale 
until we learn more details about our colleagues and our staff 
members and our police officers. But, make no mistake about it: 
What we saw this morning was evil. And, I hope that this 
hearing does not stray from the fact that we should be focusing 
on the evil; we should be focusing on violence; we should be 
focusing on enforcing our criminal laws against evil and 
violence; we should be focusing on those people who twist and 
distort any religion. Be it Muslim, Christianity, or Buddhism, 
anyone who twists and distorts that religion to a place of evil 
is an exception to the rule. It is not the rule.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    We should not focus on religion and the freedoms our 
country embraces. Our country was founded on many important 
premises, but perhaps paramount among those premises was the 
freedom of religion. The earliest Americans, aside from our 
Native Americans, came here because they were fleeing from 
persecution based on their religion. Our freedoms, like freedom 
of speech, freedom of assembly, freedom of religion, define us 
as a Nation, and no evil should ever be allowed to distort 
those premises. Ever. And, I am hoping, although I am worried, 
honestly, that this hearing will underline that.
    I am concerned that the President's budget proposal has 
taken its eye off the ball in terms of our fight against this 
evil extremism and the violence that it foments. I am worried 
that it has slashed homeland counterterrorism measures like the 
Visible Intermodal Prevention and Response (VIPR) teams that 
have provided an extra layer of security at our airports. It 
also calls for the complete elimination of the Law Enforcement 
Reimbursement Program, which provides financial assistance to 
local law enforcement agencies that help secure our airports. 
It would reduce the Port Security Grant Program and the Transit 
Security Grant Program by more than 50 percent--all soft 
targets for these criminals, these evil criminals.
    The Urban Area Security Initiative (UASI) Grant, which 
helps prepare high-density urban areas on how to respond, would 
be cut by $150 million. The President's proposal would zero out 
the Complex Coordinated Terrorist Attacks Grant Program, which 
is so essential as we face violent, evil criminals.
    While it is critical that we enhance our physical security 
and provide law enforcement with the resources they need to 
keep us safe, we also have to improve our efforts to stop 
Americans from being radicalized. Our danger, at least to date, 
has not been from those who try to slip into this country 
unnoticed or who try to illegally cross our borders or who are 
seeking refuge in a crisis, a humanitarian crisis. That is not 
where the danger has come from. It has come from people who are 
Americans or people who are legally in this country who have 
been radicalized.
    We face a threat from a variety of sources on 
radicalization, including white supremacists, ecoterrorists, 
and ISIS and al-Qaeda sympathizers. There is a long list. In 
the context of Sunni-inspired violent extremism, which is where 
this hearing appears to be focused based on the witnesses, it 
is absolutely vital that any effort our government undertakes 
to counter violent extremism is done in partnership and in full 
engagement of the peace-loving Muslim community.
    In order to combat ISIS and other extremists' propaganda, 
we must have a healthy dialogue with Muslim and other community 
leaders to ensure that resources are available to families and 
friends that may have concerns about loved ones who have become 
attracted to extremist rhetoric.
    Unfortunately, some of the rhetoric we hear, including some 
from of the witnesses here today, is at odds with this 
approach. It is also in complete conflict with American 
principles and values. And, most importantly, it would actually 
make the United States of America less safe. We need to spend 
less time stirring up anti-Muslim rhetoric and more time 
working on these issues and working with the majority of 
Muslims, both in this country and around the world, who are 
peaceful and law abiding.
    We are lucky to have Michael Leiter testifying with us 
today. As the former Director of the National Counterterrorism 
Center (NCTC) during the Bush Administration, Mr. Leither.
    Mr. Leiter understands the threats our country faces and 
has extensive knowledge and expertise crafting strategies to go 
after the people who are trying to do us harm. I am eager to 
hear Mr. Leiter's analysis and the lessons we can learn from 
the recent attacks in the United Kingdom (U.K.) and elsewhere. 
I would appreciate his thoughts on the President's budget, and 
I am interested in recommendations to bolster the Nation's 
safety and resilience, without compromising our constitutional 
principles. We can do better to combat and prevent radicalism 
and extremism as long as we work together under the umbrella of 
those important protections.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in 
witnesses, so if you will all stand and raise your right hand. 
Do you swear the testimony you will give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you, God?
    Ms. Hirsi Ali. I do.
    Ms. Nomani. I do.
    Mr. Lenczowski. I do.
    Mr. Leiter. I do.
    Chairman Johnson. Be seated.
    Our first witness is Ayaan Hirsi Ali. Ms. Ali was born in 
Somalia and migrated to the Netherlands to avoid a forced 
marriage. She served on the Dutch Parliament and in 2004 wrote 
the script of a short film, ``Submission,'' critical of Islam's 
treatment of women. After the film was released, the director 
of the film, Theo van Gogh, was assassinated. Hirsi Ali is the 
author of several books, most recently, ``The Challenge of 
Dawa: Political Islam as Ideology and Movement and How to 
Counter It.'' She currently is a research fellow at the Hoover 
Institution and founder of the Ayaan Hirsi Ali Foundation. Ms. 
Hirsi Ali.

   TESTIMONY OF AYAAN HIRSI ALI,\1\ RESEARCH FELLOW, HOOVER 
                INSTITUTION, STANFORD UNIVERSITY

    Ms. Hirsi Ali. Chairman Johnson, Ranking Member McCaskill, 
Senators, ladies and gentlemen, I want to join you both in 
condemning the violence of this morning, and I wish the 
Congressman a swift recovery.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hirsi Ali appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    Thank you for this opportunity to talk to you about the 
threat that is endangering our Constitution, our freedoms, and 
our way of life. Clearly, not all Muslims pose a threat, but 
some do. How can we tell the difference? We can by 
understanding the nature of Islam. Islam is part religion and 
part a political-military doctrine. The part that is a 
political doctrine consists of a world view, a system of laws, 
and a moral code that is totally incompatible with our 
Constitution, our laws, and our way of life.
    In 2017, there are two major governments that apply Islamic 
law, or Sharia: Saudi Arabia and Iran. As we sit here, we are 
also fighting a rogue entity that goes by the name of ISIS. 
ISIS implements Sharia in its most extreme or most pure form. 
Islamic law, as practiced in these places, negates secular law 
and demands submission to the ruler without question.
    Women are subordinate to men and are denied such basic 
rights as owning their own bodies and sexuality. They face 
discrimination in marriage, inheritance, and custody. Victims 
of rape must produce four witnesses, and if they do not, many 
are flogged or stoned to death.
    Religious minorities are subject to a second-class citizen 
existence. There is the death penalty for homosexuals and 
apostates. There are no checks and balances and no free and 
impartial courts. There is no rule of law. Dissent is brutally 
suppressed.
    Not all Muslims, not even those who live in these 
theocracies, support Sharia. I call those who do ``Medina 
Muslims'' because they invoke Muhammad, the founder of Islam in 
Medina. I believe that the vast majority of Muslims accentuate 
the spiritual aspects of Islam. I call them ``Mecca Muslims'' 
because they cite Muhammad and his legacy from Mecca.
    There is a third subset of Muslims, like Asra, who reject 
the military and political aspects of Islam. I call them the 
``reformers.'' They are different from the Mecca Muslims 
because they stand up to the Medina Muslims by openly rejecting 
Sharia.
    Most Muslims live in secular States or States with some 
forms of Sharia. There are also millions of Muslims today who 
live as considerable minorities in non-Muslim societies like 
ours. The Medina Muslims are not satisfied with this status 
quo. Their goal is to transform all Muslim majority countries 
into Islamic theocracies and to use Muslim immigrant minorities 
as a beachhead to transform non-Muslim societies, even free 
ones, such as the United States. They have a long time horizon 
and already have a foothold.
    Medina Muslims use a combination of force or jihad, along 
with the dissemination of the ideology through a mechanism 
known as ``dawa.'' In theory, dawa is the call to Islam and 
consists of proselytizing. In practice, it is a process of 
radical indoctrination. Dawa advocates use the cover of 
missionary efforts, relief works, education, and cultural 
activities. They target the individual, the family, the 
education system, the workplace, the broader economic society 
as a whole. It is totalitarian like communism and fascism, but 
different because it is shrouded in religion.
    This quest by the Medina Muslims to establish Sharia across 
the globe by all means has led to weak and failed States, to 
repression, to civil wars, to the exodus of people from their 
homes and in free societies to divisiveness and the breakdown 
of social cohesion. We must stop not only the violent entities, 
like ISIS, al-Qaeda, Boko Haram, and others, but also dismantle 
the networks of dawa. Above all, we need to challenge the 
principles of Sharia law.
    I look forward to your questions. Thank you.
    Chairman Johnson. Thank you, Ms. Hirsi Ali.
    Our next witness is Asra Nomani. Ms. Nomani is the co-
founder of the Muslim Reform Movement. She is the author of 
``Standing Alone: An American Woman's Struggle for the Soul of 
Islam.'' She also has led the Pearl Project, a student-faculty 
investigation into the murder of her friend, Danny Pearl, who 
was executed by members of al-Qaeda. Ms. Nomani.

   TESTIMONY OF ASRA Q. NOMANI,\1\ CO-FOUNDER, MUSLIM REFORM 
                            MOVEMENT

    Ms. Nomani. Thank you so much. Thank you, Chairman Johnson, 
thank you, Ranking Member McCaskill, and thank you, Senators, 
for this invitation to be here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Nomani appears in the Appendix on 
page 65.
---------------------------------------------------------------------------
    Our hearts are indeed gripped with the horror of this 
morning's shooting. I feel empathy and compassion for you 
because this day takes me back to a day 15 years ago when I 
felt the same gripping of my heart. I learned that day that my 
colleague and friend, Danny Pearl, from the Wall Street 
Journal, had been kidnapped. We learned in the weeks that 
followed that he had been kidnapped by militants, and it was 15 
years ago almost to this day that we learned that he was buried 
in a plot outside of Karachi, his body cut into pieces by the 
men who believed that their interpretation of my faith 
justified this brutal murder.
    I sit before you because on that day I developed a passion 
that I would expect you all will also feel committed to after 
you learn the intentions, motivations of the shooter this 
morning. Ayaan lost a friend. I lost a friend. On that day, I 
made it my duty as a Muslim to stand up against the ideology of 
extremist Islam that motivated the men that took my friend from 
this Earth.
    There was one value that connected the 27 men that were 
involved in Danny's kidnapping and murder, and that was that 
they had all absorbed the dawa or the evangelism of an 
ideological interpretation of Islam that is of the nature that 
Ayaan is speaking about.
    I want us to be really clear. This is not the Islam that my 
parents taught me. The Islam that my parents taught me led me 
this morning to stand shoulder to shoulder with my father and 
open my hands and pray for peace of mind for everyone in this 
world.
    What Senator McCaskill talks about is really important. We 
must make this distinction. And, I think at the same time that 
means that we are clear, as Senator Johnson is talking about, 
related to the enemy that we face.
    The ideology of Islamism or political Islam contradicts the 
constitutional values of this country. The elements of Islamism 
or political Islam are very clear. It demands that we have 
political governance according to the laws of Sharia, or 
Islamic law. Those standards are in complete contradiction with 
the laws of our country.
    I want to tell you from the trenches that this is a reality 
that we face in our country. In Northern California, Facebook 
promotes the page of Hizbut Tahrir, an organization whose 
meeting I attended in Northern Virginia last summer. Behind the 
speakers was a flag for the Islamic State.
    In Michigan, a man is preaching to advocate for child 
marriages in the name of Islam.
    In Northern Virginia, an imam just preached that it is OK 
to cut the clitoris of girls because it leads to then the 
ability to keep hypersexuality from expressing itself in the 
world.
    What is it that we must do? We must be clear, as Chairman 
Johnson is saying. We must have moral courage and intellectual 
courage. We must absolutely separate the many Muslims who do 
not practice Islamism from those who do. And, in that way, the 
objective that we have to protect Muslims and to be able to 
differentiate extremism from the large swath of the faith that 
my family and others practice will be realized. We will, in 
fact, protect Muslims if we take this strategy of marginalizing 
the extremists.
    We as a Nation must be committed to shut down the ideology 
of Islamism, just as we defeated fascism, just as we defeated 
communism. The ideology of Islamism denies us the right as men 
and women to sit in a room together as we are sitting today. It 
denies young girls the right to go to a concert and calls them 
``dangerous women.'' It denies a woman like myself the right to 
sit in a bakery in Dhaka, Bangladesh, without being separated 
and then killed. We have to understand that the future of our 
world depends on our clear thinking and our wisdom.
    I came here with fear in my heart because we also face a 
network that I call the ``Honor Brigade'' that wants to silence 
this conversation. Ayaan and I are under attack constantly. 
Between us, I do not know how many death threats we have faced, 
but we sit before you with our backs to both our friends and 
our enemies because it is our duty to stand up for the humanity 
in which we believe.
    When I had fear last night and my mother was beside me, she 
took my hand, and she said, ``Do this for humanity. Step 
forward for humanity.'' And, I urge all of you to remain 
committed to all the values in which we believe and the freedom 
and the beauty of this world that we want to see the next 
generation inherit.
    Thank you so much.
    Chairman Johnson. Thank you, Ms. Nomani.
    Our next witness is Dr. John Lenczowski. Dr. Lenczowski is 
the founder and president of the Institute of World Politics, a 
graduate school on national security and international affairs. 
Dr. Lenczowski served at the State Department from 1981 to 1983 
and then with the National Security Council from 1983 to 1987, 
where he was the Director of European and Soviet Affairs and 
President Reagan's Principal Soviet Affairs Adviser. Dr. 
Lenczowski.

TESTIMONY OF JOHN LENCZOWSKI, PH.D.,\1\ FOUNDER AND PRESIDENT, 
                THE INSTITUTE OF WORLD POLITICS

    Mr. Lenczowski. Good morning, Mr. Chairman and Ranking 
Minority Member and Members of the Committee. I am honored to 
have the chance to discuss how to protect ourselves against 
radical jihadism.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lenczowski appears in the 
Appendix on page 110.
---------------------------------------------------------------------------
    We have spent trillions in this country fighting Islamist 
terrorism as if it is a military problem. This is like trying 
to eradicate mosquitoes by inviting your friends for a garden 
party, arming them with shotguns, and shooting mosquitoes all 
afternoon. You will get a few. The problem is the garden has a 
puddle which is spawning new mosquitoes--not just terrorists 
but jihadists dedicated to establishing a totalitarian 
caliphate worldwide. This is not a military problem. It is a 
political, propaganda, ideological, cultural, and religious 
doctrine problem. To solve it necessitates fighting a war of 
ideas, and the problem is that we have virtually no ideological 
warriors in this war.
    We have a precedent in the Cold War. Eliminating the 
sources of Cold War tension required changing the Marxist-
Leninist core of the Soviet system. So, we conducted an 
ideological war episodically for some four decades. This 
consisted of the use of the truth to counter Soviet propaganda, 
undermining the ideology as the basis of Soviet legitimacy, 
anathematizing the inhumanity of communist rule, offering the 
peoples of the Soviet empire a positive alternative--freedom, 
democracy, and hope for a better life--and supporting 
resistance forces within the empire.
    Victory entailed the collapse of the Communist Party and 
the entire Soviet system. A key indicator of that victory was 
the concession by the chief party ideologist, Alexander 
Yakovlev, that the ideology and the system it produced were 
``evil.''
    We must also fight jihadism by targeting its ideological 
core. Jihadism differs from politically moderate Islam insofar 
as it seeks to expedite ordinary missionary activity by 
conducting jihad of the sword and resettlement jihad, migration 
to non-Muslim lands, establishing separatist enclaves that run 
according to Sharia, and culminating in political demographic 
conquest.
    Modern totalitarian Islamism, which incorporates Marxist-
Leninist political strategy, forms the basis of the recruitment 
of new jihadists, both terrorists and resettlement jihadists. 
It depends on generating hatred against the infidel, 
principally through a moral attack against colonialism, 
Zionism, and U.S. hegemony, and against the West's moral 
degradation.
    Defeating this ideology requires an ideological counter 
attack based on superior moral precepts. Above all, this 
requires telling the truth and ending self-censorship about 
radical Islamism and an information campaign exposing the 
ideology, exposing jihadist strategy, Sharia, and the crimes of 
radical Islamist regimes.
    It then requires an attack on the ideology and its 
manipulation by jihadists, and I can discuss later on a number 
of different elements of what that would look like.
    Finally, it requires offering a positive alternative, 
including an appeal to conscience and the promotion of human 
rights. Regrettably, our government is intellectually and 
organizationally unprepared to do all this. We no longer have 
centers within our government that promote excellence in public 
diplomacy, strategic influence, and ideological warfare. So, we 
should resurrect a new version of the U.S. Information Agency. 
I would call it the ``U.S. Public Diplomacy Agency.'' Located 
within the State Department, it should contain all the offices 
addressing influence over public opinion. They would include 
the Human Rights Bureau; a strengthened version of the current 
Global Engagement Center (GEC) to counter jihadist propaganda; 
an Office of Foreign Opinion Research; a Bureau of Education, 
Culture, and Ideas with a special office of ideological and 
religious affairs; the Voice of America (VOA), which should be 
transferred to this agency from the BBG; and an office for the 
counterintelligence protection of U.S. public diplomacy 
programs.
    The Central Intelligence Agency (CIA) must resurrect 
serious covert political influence capabilities, including the 
funding and running of all forms of media and the ability to 
support voices of politically moderate Islam in their efforts 
to discredit jihadism.
    Our Defense Department needs to strengthen its military 
information support operations, and the Department of Homeland 
Security (DHS), the State Department, the Federal Bureau of 
Investigation (FBI), and local law enforcement need 
significantly improved capabilities to distinguish between 
ordinary Muslims who want their religion to be a religion and 
not a radical secular ideological program, to distinguish those 
people from jihadists, and when it comes to whom to admit to 
the United States or with whom to cooperate in the struggle 
against jihadism.
    Thank you.
    Chairman Johnson. Thank you, Doctor.
    Our final witness is Michael Leiter. Mr. Leiter most 
recently served as president of Leidos Defense. Mr. Leiter 
previously served as the Director of the National 
Counterterrorism Center from 2007 to 2011 for both President 
George W. Bush and President Obama. Mr. Leiter.

TESTIMONY OF THE HONORABLE MICHAEL E. LEITER, FORMER DIRECTOR, 
                NATIONAL COUNTERTERRORISM CENTER

    Mr. Leiter. Chairman Johnson, Ranking Member McCaskill, and 
Members of the Committee, thank you very much for having me, 
and I would simply add my thoughts and prayers to those who 
were injured and the families that are affected this morning.
    Before directly addressing today's topic, I do want to 
offer two critical opening points. And, first, it is that I am 
not going to address all forms of terrorism today because that 
is not what the Committee asked for. But, I do not want that to 
be read as that Sunni-inspired terrorism is the only terrorist 
threat we face. We face Shia terrorism, right-wing nationalist 
terrorism, other political terrorism, all of that throughout 
the global, and some of the solutions to address Sunni-inspired 
terrorism are the same, but there are also distinctions.
    The second caveat is that although I am going to focus and 
we are focusing on the ideological aspects of this struggle, I 
am extremely supportive of what is a balanced approach to 
terrorism. From my perspective, that includes overseas kinetic 
actions to take people off the battlefield, intelligence 
partnerships with our close allies, aggressive law enforcement, 
and an ideological component. But, if we just do one of those, 
we have pretty much guaranteed ourselves failure in the larger 
battle.
    Now, as this Committee knows well, countering violent 
extremism (CVE), are those non-coercive preventative activities 
that aim to reduce radicalization and ultimately recruitment to 
violence. These are inherently broad activities, including all 
parts of the community, rehabilitation, many pieces. And, in my 
view, any of these activities must be based on a very rigorous 
and, as you said, Mr. Chairman, a factual and truthful analysis 
of radicalization. And, thankfully, unlike in 2001, this is 
something which in my view is widely available within the U.S. 
Intelligence Community (IC), from credible partners overseas, 
and academic institutions.
    Now, when implemented properly, there is no doubt in my 
mind that CVE programming reduces radicalization and violence, 
and we should not be surprised by that. It works in anti-drug 
activity. It works in anti-gang activity. And, it can work in 
this context as well. And, studies from Duke, the University of 
Massachusetts, Mercy Corps, the Netherlands, Kenya, Germany, 
U.K. all back this up.
    Now, in my view--and I take significant blame for this, 
having been the Director of the National Counterterrorism 
Center in President Bush and President Obama--since 9/11 the 
U.S. CVE programs have been of marginal effectiveness. And, I 
hope we have more agreement. I agree with much of what Dr. 
Lenczowski said about the poor resourcing and lack of focus on 
many of these programs, both domestically and internationally 
for the United States.
    Again, I think we have some very good programs. I would 
highlight George Selim, the Office for Community Partnerships 
at DHS. There are good people doing good work. But, we have not 
resourced these programs and done so in a strategic way. Let me 
give you a very small example of this inadequacy, and I will 
compare it to a drug problem.
    The 2016 Federal Drug Demand Reduction Program received $15 
billion; $1.5 billion of that was for prevention activities. 
The CVE elements of DHS' Office for Community Partnerships has 
all of $10 million in 2016 grant funding. So, if we think this 
is a serious problem, we need a serious solution. Right now we 
do not have that.
    Now, in designing CVE programs, we have to be very careful, 
in my view, not to alienate the very same communities on which 
we rely. The ideology of Sunni violent extremism is, of course, 
part of the problem, and it must be both addressed and 
consistent with the First Amendment. At the same time, we must 
not--I cannot stress this enough--conflate a violent ideology 
with mainstream Muslim beliefs. To do so is not only factually 
wrong, but it is deeply counterproductive, and it will feed 
directly into the extremist narrative of us versus them. And, 
it directly undercuts the most forceful message we have of ``e 
pluribus unum.''
    In this regard, I think it is deeply mistaken and harmful 
to equate core Islamic concepts that are not inherently violent 
with extremist interpretations of these principles. For 
example, the Muslim tradition of dawa, or proselytization, 
which is not dissimilar to similar traditions in Christianity 
and elsewhere, is not--I repeat, is not--equivalent with the 
Islamist violent and forceful interpretation of this term. 
Similarly, Muslims' honoring of Sharia is not inherently 
intentioned with living in constitutional democracies any more 
than it would be for Christians or Jews who also seek to honor 
their religious traditions while still complying with civil 
authority.
    So, what would a successful counterterrorism program with a 
robust CVE program look like?
    One, as I have said, act aggressively overseas, disrupting 
both physical and, as you mentioned, Mr. Chairman, cyber safe 
havens.
    Second, Federal law enforcement must work with local 
officials to share the heavy burden of investigation, and in 
doing so, those officials must understand Islam and all its 
diversity so that they may distinguish between peaceful 
adherents and violent extremists.
    Defensive measures must be in place, and we must have a 
robust CVE strategy for a country of almost 300 million. And, 
that would include education programs for State and local 
officials on Islam, done in conjunction with local Muslim 
communities; engagement with Muslim organizations, recognizing 
the massive diversity like every other religion we have here in 
the United States with those Muslim communities; fostering 
engagement with the technology community and Muslim 
organizations to enable effective nongovernmental organizations 
(NGO) ideological engagement where the U.S. Government cannot 
and should not engage; diversion programs modeled on anti-gang 
and anti-drug programs to help channel youth away from 
extremism and violence; leveraging all elements of United 
States and local governments to ensure CVE leadership is far 
beyond law enforcement officials; and just like in 
manufacturing, fully develop metrics to make sure where we are 
putting our money, they are dollars well spent.
    There are a number of programs, as Ranking Member McCaskill 
said, that I think are at risk, both domestically and overseas, 
from the President's budget. I look forward to answering those. 
I look forward to working with this Committee on this and other 
issues which face us on violent extremism of all stripes.
    Chairman Johnson. Thank you, Mr. Leiter.
    I did want to in my opening statement--and I did not have 
the piece of paper with me--quote Karl Popper from 1945. Let me 
read the full quote into the record. Again, this was written in 
1945. ``Unlimited tolerance must lead to the disappearance of 
tolerance. If we extend unlimited tolerance even to those who 
are intolerant, if we are not prepared to defend a tolerant 
society against the onslaught of the intolerant, then the 
tolerant will be destroyed, and tolerance with them.''
    Mr. Leiter, in your testimony you said if we think this is 
a serious problem, we need a serious solution. That is the 
point of this hearing. Do you think this is a serious problem? 
I mean, the reason I called this hearing, by the way, was a 
Wall Street Journal article written by Ms. Hirsi Ali describing 
dawa versus jihad. I had not heard of that, quite honestly. You 
described dawa as pretty benign, and I think it could be. 
Certainly, as you know, whether it is Christian missionaries--
you are trying to promote, evangelize a religion, but what are 
you evangelizing about? Are you evangelizing the moderate, the 
non-violent form? Or are you evangelizing the Islamist 
terrorist form?
    Do you deny the reality that there are elements, that there 
are potentially charitable organizations raising money and 
funneling those dollars into potentially Islamic terrorist 
groups?
    Mr. Leiter. Mr. Chairman, I spent 4\1/2\ years of my life 
working for a Democratic and a Republican President trying to 
keep the American people safe from violent Islamic extremism. 
So, any suggestion, even in your question, that I somehow deny 
that.
    Chairman Johnson. Well, good. Just say you do not--OK, 
great. I appreciate that. I honestly was not trying to 
challenge you.
    Mr. Leiter. Mr. Chairman, there are undoubtedly 
organizations who clothe themselves, who wrap themselves in the 
cloth of religion who are pursuing violent means, and we have 
to stop that, and we have to see through that. And, I think one 
of the greatest challenges is educating U.S. Government 
officials and other officials to make that distinction, to draw 
that distinction between those organizations which are pursuing 
legitimate charitable means in the name of any religion versus 
those that are pursuing illegal and dangerous violence or 
funding of other organizations.
    Chairman Johnson. OK, my point--and truthfully, I was not 
trying to challenge you in any way, shape, or form. I truly 
respect what you have done and the testimony you have provided 
this Committee in the past. I think what I am hearing is not 
areas of disagreement here between the witnesses, although it 
might be set up like there may be. So, is there anything that 
you heard in the testimony from our two female witnesses that 
you would disagree with?
    Mr. Leiter. Well, first of all, I want to say much of their 
work I greatly respect, and rather than try to give an overview 
or characterize all of their statements today, there are things 
that the witnesses have written with which I disagree. What I 
heard mostly today I would largely agree with. I do not agree 
with a few small things.
    Contrary to the good doctor, I do not think that there has 
been, at least in my experience, significant self-censorship 
within the U.S. Government talking about this. I, in fact, 
tripled the resources at NCTC to study the ideological aspects 
of this so we could train State and local officials on Islam.
    So, there was no issue about saying this is not Islamic. We 
knew that there were ideological drivers of this, and people 
had to understand that. We started a program to go out and 
train community groups on understanding Islam. We started a 
program that helped train Muslim communities on understanding 
what was available to their sons and daughters that might be 
radicalizing material on the Internet. So, we did not at all 
ignore it.
    Now, I do agree with the good doctor, as I said, the U.S. 
Government's policy and budgetary priorities have not always 
aligned with that. But, I do not think that that was political 
censorship and trying to bury our head in the sand about what 
some of the roots of the problem were.
    Chairman Johnson. Ms. Nomani, can you just kind of respond?
    Ms. Nomani. Yes, I would like to say that I have been 
waiting for this hearing for 15 years because we have been 
unable to have a conversation about ideology and terrorism when 
it comes to Islam.
    I remember a moment when I went to the State Department 
several years ago, and there was a meeting of a public 
diplomacy official, Farah Pandith, and it was to talk about 
what strategies we could put into place. And, I said to her 
very simply, ``It is about the ideology.'' It is about the 
ideology that you know very well is put out into the world by 
governments like Iran, Qatar, and Saudi Arabia and their 
proxies, like the Muslim Brotherhood. But, I was told at that 
meeting that we cannot have this conversation about ideology. 
Our freedom of religion will not allow us to have that 
conversation in a public space.
    But, what I push back on and what I am so happy to see us 
discuss today is the fact that the ideology that is a problem 
is one that violates U.S. constitutional law. It is one that 
wants to see the overthrow of this democracy and wants to see 
us as women put into separate and segregated spaces with rights 
that are not equal to men. And so, this is a reality.
    I have with me a book that I bought at the Medina Market in 
Herndon, Virginia, just off of Route 7, a road that is called 
``Wahhabi Corridor'' because off of Route 7 are the mosques, 
the think tanks, the book stores that put this ideology out to 
our community. And, in this book of law, Islamic law, the 
Sharia that is a problem, here on the anniversary of the 
Orlando attack, it tells us that homosexuals should be killed. 
It tells us the reasons why we should wage jihad in America and 
the rest of the world. This is not the Islam that my parents 
taught me, but this is a reality. And, I am so happy that we 
are finally confronting the ideological problem.
    Chairman Johnson. Ms. Hirsi Ali, would you just like to 
respond?
    Ms. Hirsi Ali. Yes. I think it is not so much a question of 
disagreement, but maybe it is a question of perspective. And, I 
think what I would like to do is start with where we agree on, 
all of us here on the panel, and I hope all of you, and where 
we all agree on is that Muslims are not synonymous with 
terrorism or repression or misogyny or any of that. So, I would 
like to start by making this distinction between Islam as a set 
of beliefs, as a doctrine, as a tradition, as a civilization on 
the one hand and the human beings as Muslims. And, if you take 
Islam and you study--there are libraries full of books on Islam 
and studies on Islam, and what it boils down to is that Islam 
is part religion and it is spiritual, and it has that 
spiritual--and a very rich history of spirituality. But, it 
also has a military-political component.
    Now, there are some Muslims who accentuate the spiritual 
and the religious, like your mother holding your hand today and 
the way your parents raised you, Asra Nomani, who tells you 
that the way they see the spiritual component of their religion 
is peaceful, and they wish no one else any harm. And, if they 
engage in evangelization or if they engage in dawa, that dawa 
is only about spreading that peace, goodness, and wellness.
    But, there are other groups, and that is why we are having 
this conversation. What we are dealing with is this other group 
who are taking out of the historical and civilizational context 
of Islam and accentuating the political and the military.
    Now, both groups invoke the Prophet Muhammad, who is the 
founder of Islam, they invoke the Qur'an, they invoke 
scripture. And, the question is: Does the Prophet Muhammad 
support the Medina Muslims, those who accentuate the politics, 
or does he support those who accentuate the spirituality? He 
does both. When he first founded the religion in Mecca, the 
first 10 years, it was all about religion and spirituality. 
Later on, in Mecca, after emigration, it is all about politics, 
it is about military. He has militias. He wages wars. He 
develops a new law. And, these men in the 21st Century who are 
organizing themselves as nongovernmental organizations like the 
wider Muslim Brotherhood, and the Muslim Brotherhood is just 
one entity, or a theocracy like Saudi Arabia, another theocracy 
like Iran, they invoke the Prophet Muhammad's legacy in Medina. 
So, that is why I think it is extremely important that we make 
this distinction.
    Now, we have problems with those Muslims and only those 
Muslims who accentuate the political and military doctrine of 
Islam. We have been focusing a great deal, as we should--and I 
agree with you, Mr. Leiter. As we have been focusing on those 
who use violence and use jihad, terrorism, we have not paid as 
much attention to what you call, Dr. Lenczowski, the puddles, 
the mosquito puddles, the breeding places, those people who get 
into the hearts and minds of vulnerable people and turn them 
toward the idea that it is OK to run your car over people, that 
it is OK to kill homosexuals, that it is OK to kill apostates, 
that it is OK to pursue a world view of a society that is based 
on a 7th Century law. That is, I think--to begin with, we 
should have that clarification. And, I want to say I came and I 
accepted your invitation to talk about only that group, not to 
vilify or stigmatize those Muslims who accentuate their 
spirituality.
    Chairman Johnson. OK. And, I appreciate that, and I 
appreciate the attempt here--and this is an attempt. What do we 
agree on? And, really what is the truth? What is the reality? 
Again, truly, I was not challenging. I am just trying to find 
out, where are the areas of agreement? What we do not disagree 
on so we can try and at least probe that to figure out, what 
really is truth, what is reality. Because the only way we are 
going to try and address what you have been working so 
tirelessly to address, to prevent, is in acknowledging those 
realities.
    Mr. Leiter. Much appreciated, and I completely understand.
    Chairman Johnson. Senator McCaskill.
    Senator McCaskill. I think we all agree that extreme 
ideology used as a recruitment for violence is important and 
that we must focus on it and we must fight it. But, we have to 
do that within our constitutional parameters. For example, we 
cannot ban that book. As repugnant as that book is, we cannot 
ban it in the United States of America. That is not how we 
roll. And, we have to fight it with the appropriate tools of 
our government and our civil laws. And, as we fight it, I think 
the facts really matter, and I think it is important that we 
remain factual.
    Dr. Lenczowski, in your prepared testimony, you discussed 
European ``no-go zones'' and Muslim enclaves. Mr. Leiter, you 
have broad experience working with our international allies and 
partners, and I know you have traveled extensively and worked 
arm in arm with both your counterparts in these European 
countries and the police in these European countries. Is that 
factual? Are there no-go zones in Europe?
    Mr. Leiter. In my experience, in Denmark, Brussels, the 
United Kingdom, Germany, France, having worked with the 
counterterrorism law enforcement officials, I never saw 
anything remotely resembling a no-go zone.
    Senator McCaskill. And, in the written testimony--and, by 
the way, Dr. Lenczowski, I would love to see the citations of 
the 140 cases, because the one that you cite specifically--I 
believe, Mr. Leiter, you are a former U.S. Attorney; you have 
looked at this case. You say specifically that a man was 
acquitted for serially raping his wife on the grounds that he 
is a Muslim and, therefore, subject to Sharia law. I do not 
believe that is true. I think that is just patently false.
    Mr. Leiter, are you familiar with that case?
    Mr. Leiter. I am. The case arose, an individual was 
seeking--or a wife was seeking a restraining order against a 
husband for sexual abuse, and the New Jersey State trial court 
refused to find mens real criminal intent based on the 
husband's belief that the Sharia marriage contract could not 
have--allowed him to do what he did. And, the first round of 
appeals in the New Jersey next level of court--I was also a 
clerk at the Supreme Court for Justice Breyer, and I believe it 
would be what was called proverbially a ``smackdown'' for the 
trial court, saying that the trial court deeply misunderstood 
U.S. constitutional law and New Jersey law and that there was 
no way in which this husband would be permitted under any 
interpretation of U.S. law to go forward.
    Senator McCaskill. And, the case you cited in Missouri, Dr. 
Lenczowski, I know the prosecutor in that case. This was a case 
where a family member abused a child over what they were 
wearing. In this instance, it was a head covering. But, it 
could have been a short skirt. It could have been a bare 
midriff. This family member pulled this child out of the school 
and physically assaulted the child and was arrested on the 
felony of child abuse.
    Now, I fail to see how that is an encroachment--and the 
case is still pending, by the way.
    Mr. Lenczowski. I am not completely familiar with that 
case. I read something about it, but I did not write about it. 
And, I acknowledge, by the way, Senator, that that particular 
case in New Jersey was reversed on appeal. But, the fact that 
it got as far----
    Senator McCaskill. You say he was acquitted. He was never 
even charged.
    Mr. Lenczowski. No, no----
    Senator McCaskill. Facts matter, sir. He was never 
acquitted of anything.
    Mr. Lenczowski. Then perhaps I used the wrong language 
there.
    Senator McCaskill. Language matters.
    Mr. Lenczowski. I understand, but the judge made a judgment 
based on Sharia that it should never have gotten as far as it 
did.
    Senator McCaskill. Well, I can tell you that having done 
domestic violence cases for many years and having fought in the 
Missouri Legislature, believe it or not, in this country--me as 
a State legislator, I fought to make sure that men could not 
rape their wives in Missouri. That law was just overturned in 
1995. Up until 1995, men could rape their wives in the State 
where I live.
    So, I mean, I think that this notion, Mr. Leiter, do you 
believe that Sharia law is slowly becoming the law of the land 
in this country?
    Mr. Leiter. I think it is a deeply mistaken factual belief 
that Sharia is making any inroads. Religious laws can be the 
basis for contracts between people if they choose to, but, 
ultimately, the U.S. court system has very well developed 
theories, judicial theories of when those religious agreements, 
those religious contracts between two individuals can or cannot 
be honored in Federal courts. That is well established. And, I 
see no signs, no credible signs that Sharia law poses even the 
most minute risk to U.S. constitutional principles and U.S. 
law.
    Senator McCaskill. And, Mr. Leiter, could you briefly 
address the resource issue as it relates to the President's 
budget and what that will do to our CVE efforts in this country 
as we try to do exactly what these witnesses want us to do, and 
that is, combat this ideology that is recruiting people to 
violence? Talk about what we can do, what we can actually do to 
counter this important problem.
    Mr. Leiter. Senator, let me start by making this as 
bipartisan in my criticism as I can. Both Democrats and 
Republicans before this President have failed to adequately 
resource these issues. So, it is not just the President's 
budget on this front.
    I do believe that in terms of what the main threats are we 
are facing today, largely low-technology attacks in scattered 
ways through Internet radicalization a la London, Paris, and 
the like, I believe the President's budget does real violence 
to some of those pieces, especially for this Committee. The 
potential cuts in funding to the VIPR teams, to the Coast Guard 
for port security, for rail transit, these are real issues. 
These are places that need to be defended. They have not been 
adequately defended, and they must be.
    To the President's benefit, I would say some of the funding 
of the FBI on counterterrorism is a good thing, so there is not 
all bad. I think some of the funding--and Commissioner James 
O'Neill in New York has been very vocal, as is Las Vegas. There 
are some real cuts in UASI funding and other programs that have 
been critical in situations like Orlando and Boston for 
preparing people to respond when the tragedy occurs. That 
cannot be cut.
    Last, but not least, I know this is not directly in this 
Committee's purview, but it is interconnected, which is the 
international aspect of this. And, I am deeply troubled by the 
proposed cuts to the State Department and the U.S. Agency for 
International Development (USAID), which are critical to the 
international CVE programs that we have that the doctor noted. 
I think we have to seriously regard those--as Secretary Mattis 
has so eloquently said, it just means he has to buy more 
bullets. And, you cannot buy enough bullets. So, in those 
regards, I think the President's budget is deeply problematic.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member 
McCaskill.
    I want to start this morning, too, by adding my thoughts 
and prayers with those who were injured following this 
morning's horrific shooting. And, I want to thank the men and 
women of the Capitol Police for the service they provide. They 
keep us safe every day and all the time and, as we saw today, 
are willing to risk their lives for the mission of keeping us 
all safe. So, I am very grateful to them, as I am to all law 
enforcement and first responders today.
    And, with that said, I want to turn to broaden the 
discussion a little bit, Mr. Leiter, with you about the issue 
of homegrown extremism and terrorism. In your view, how can the 
Department of Homeland Security work to prevent Americans from 
being radicalized, whatever their ideology or whatever the 
ideology is that inspires them to be radicalized to the point 
where they are willing to carry out violence? Are we going to 
be able to arrest our way out of the threat of homegrown 
terrorism? Or, are we going to have to build partnerships? And, 
again, you have addressed some of the issues about resources, 
but what kind of resources do we need to be able to do that?
    Mr. Leiter. Well, there is no doubt that we cannot arrest 
our way out of it, and no bigger a softie than Donald Rumsfeld 
noted that in the famous ``snowflake'' where he said, ``The 
question is not how many we are killing. Are we producing more 
than we are killing?'' And, it is a slightly different 
situation with arresting, but it is the same challenge.
    So, arresting those who have already gone beyond a certain 
level of extremism toward violence is a critical part of that. 
But, the best way that, A, we are going to be able to find the 
people who need to be arrested and, B, reduce the number who 
are arrested is those deep partnerships, are those deep 
partnerships with communities.
    Now, the FBI is good at that and has a global and national 
presence which is probably unmatched. But, the Department of 
Homeland Security plays a key role because they are not all in 
law enforcement. And, partnerships cannot just come from people 
with badges and guns. So, from my perspective, the Department 
of Homeland Security can play several roles.
    First, of course, you have the protective element. They are 
most responsible for our critical infrastructure. Whether it is 
oil and gas pipelines, ports, borders, they have to do that, 
and they have to be funded to do that. Programs like VIPR help 
do that.
    Second, they have to be on the front lines of that 
engagement, and it is not just DHS people walking around the 
country saying, ``Hi. I am from DHS. I am here to help.'' It is 
engaging with those communities so that communities understand 
how they are under threat and what sort of partnerships they 
have to engage with. It is helping them understand what 
ideological radicalization is occurring online, and also 
building those relationships--I am looking over at Senator 
Harris because so many of these companies are in the Valley. 
But, building those relationships between government and NGO's 
and technology communities, because there are things that the 
U.S. Government, A, cannot say as a matter of constitutional 
law and, B, does not have any credibility anyway. And, the DHS 
can play a key role in building those partnerships.
    Last, but not least, DHS along with the FBI have to remain 
at the center of the sharing of information, and not just 
sharing information but sharing investigative leads with State 
and local law enforcement so we never have a situation like 
Boston where something falls below the threshold for the FBI, 
but the Cambridge Police Department and the Boston Police 
Department (BPD) might choose to pursue it. And, when they do 
that, they have to make sure that the police to whom they are 
handing that understand both constitutional limitations and, 
again, understand the ideological aspects of this so they can 
make those same difficult distinctions at times between people 
who are peaceful adherents to Islam and those who have become 
politically charged violent actors.
    Senator Hassan. Thank you very much.
    I yield the remainder of my time.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. And, I join with Senator Hassan 
in expressing my prayers and best wishes for our colleagues and 
the folks that were attacked this morning, and also thank you 
to the first responders and the Capitol Police who are so 
incredibly courageous and are sacrificing so much to protect 
other people. So, my prayers go to their families as well.
    Actually this morning Senator Hassan and I were both at a 
prayer breakfast, at the Senate prayer breakfast, and it is a 
wonderful time when we get together in a bipartisan way, only 
Senators in the room, to share our faith, and our faith not 
only in the Gods we worship but in each other. And, it was 
poignant this morning, and there was actually a presentation by 
Senator Cassidy, our colleague from across the aisle from me, 
from Louisiana. And, what I took away from what he shared this 
morning was something I think we all agree on, which is there 
are certain universal truths. There are certain things that, in 
spite of what might appear to be differences among men and 
women, certain things, and most of the things that we share 
that bind us, that we have in common. We have so much more in 
common than what separates us. And, I think that when we are 
facing challenges, it is important for leaders to emphasize 
those things we share in common and unify us, understanding 
that they are just universal truths.
    So, with that spirit, I have several questions, but I would 
like to talk with you, Mr. Leiter, in particular about your 
thoughts, which you have touched on this morning, about what 
can be done to improve the situation where work needs to be 
done. And, if we can talk about it also in a context of the DHS 
budget, and we are obviously a Committee that has oversight on 
that issue.
    So, you mentioned the George Selim program as being a good 
one at DHS. Can you tell us what makes it good?
    Mr. Leiter. Well, I think what makes it good are probably 
three things.
    One, you have someone who, in running it, is deeply 
experienced in U.S. Government and understands Islam. Now, I am 
sure there are many people who understand Islam more. There are 
many people who disagree with some of his views of Islam. But, 
he happens to be Muslim, and he is thoughtful about that. I 
have to tell you, that is very hard to find in the U.S. 
Government. The number of senior officials who understand Islam 
is painfully low. So, that is the first thing.
    The second thing is I think he understands that there is 
only so much government can do and that the U.S. Government 
tends to lack credibility in speaking about any sort of 
religion, but especially in Islam. Again, going back to my 
first point that there is simply a lack of understanding. And, 
in doing that, the office has sought not to make official DHS 
pronouncements, but instead use funding and grant money to 
enable those people who are doing good work away from 
Washington, D.C.
    I think those are probably--the third piece, I would say, 
is they are innovative in focusing on areas which are non-
traditional counterterrorism drivers. Who normally does 
counterterrorism? Intelligence, law enforcement, border people. 
They have focused more on educational institutions. They have 
worked on something called the Peer-to-Peer (P2P) Program, 
which partners with educational institutions. They have worked 
closely with a variety of organizations--immigrants' rights 
organization--again, who do not show up with the badge and the 
gun as investigators. And, I think what we have generally seen 
overseas in places like the United Kingdom and the Netherlands, 
their counter-radicalization programs have tended to work the 
best when they have a little bit of arm's length--not working 
independently but a bit of arm's length from the attorney 
generals of the world, because it will otherwise become an 
adversarial relationship with the people with whom you are 
trying to partner.
    Senator Harris. And, is VIPR the same as that? I am not 
clear on that.
    Mr. Leiter. No, Senator. VIPR is a rapid response team 
which shows up for transit programs when there is a threat. So, 
I believe previously there had been roughly 31 VIPR teams 
around the country. The President's budget cuts that to eight.
    I will tell you that when we saw threats in the United 
States, if we had something like the attack on London, we would 
immediately activate those VIPR teams because then they would 
show up around the BART stations with long guns and heavy 
weapons.
    Senator Harris. Or like the incident we had in California 
in San Bernardino.
    Mr. Leiter. Absolutely. These are critical response teams.
    Another element, which is separate from VIPR but I think 
equally important, many of these interagency programs for 
training before an attack, I would love to stop every attack. 
We are not going to stop every attack. So, the question is: How 
do we optimize the response? And, we have done that generally 
in joint programs between the Federal Emergency Management 
Agency (FEMA), the FBI, and the National Counterterrorism 
Center. And, they have included hospitals in the area, 
telecommunications providers, often Muslim organizations, so 
you can both respond, you save the people who are injured, and 
immediately start engaging the community. And, that was 
effective in Orlando. It was effective in Boston. And, cutting 
those funds I think would just be tragic.
    Senator Harris. So, you have said it, but as an expert in 
this area, I take it that you are recommending to our Committee 
that we fully fund those programs in the effort to combat 
terrorism in our country.
    Mr. Leiter. I think those programs, in light of the threat 
we face from ISIS, are only more important than they have been.
    Senator Harris. Can you unpack a little bit for me the 
possibility for collaboration with Silicon Valley and the 
technology industry?
    Mr. Leiter. I can and----
    Senator Harris. And, I will carry that back to California 
with me.
    Mr. Leiter. And, in full disclosure, I spent 3 years 
working in Silicon Valley as well, so I now have no economic 
interest in this, but what we started doing in 2009, 2010, and 
2011 was this idea of the government cannot speak 
authoritatively on this, but there were many important Muslim 
NGO's who wanted to understand how they could help stop 
radicalization and help fight violent forces. But, they did not 
really know how to get out that message, and it turned out that 
people like Anwar al-Awlaki were vastly more effective at using 
the Internet than those organizations were. And, it was 
bringing together companies like Google and the like to sit 
down with those NGO's and help them. How do you optimize search 
so if you type in ``jihad'' you do not get an al-Awlaki video, 
you get a more peaceful message? So, I think that is critical.
    I do think that technology companies, obviously, between 
2009 and 2011 when I left and today, we are in an even more 
problematic posture. And, I say that for at least two reasons.
    One, the threat, because of terrorists' use of the 
Internet, has become vastly more effective. As the Chairman 
said, ISIS knows how to get the message out using music and 
communications in a way that al-Qaeda never did. So, the threat 
is greater.
    Second, the tension between the U.S. Government and the 
Valley, technology companies writ broad, is higher than it was 
in 2010 and 2011 because of a variety of issues beginning with 
Edward Snowden. So, finding that partnership I fear will be 
more difficult, but it is critical. And, I think Prime Minister 
May, at the G-7 she raised these issues. But, fundamentally, it 
is issues of reporting extremist content online, actively 
taking it down, using algorithms to do it more automatically 
and reporting that to the FBI and law enforcement, and then 
even a harder-to crack, in my view, is the issue of end-to-end 
encryption, which has not always arisen, but will increasingly 
prohibit or keep U.S. law enforcement officials, not just 
working on terrorism, from accessing communications in a way 
that they have become very accustomed over the past six 
decades.
    Senator Harris. Thank you.
    Chairman Johnson. At this moment, just to quickly 
interject, I know Senator McCaskill was talking about First 
Amendment rights, freedom of religion, freedom of speech, which 
we all value, but within those rights, we do ban things like 
child pornography. It is illegal to incite violence. And, I 
think that is what we are trying to come to. Where is that 
line?
    But, with that, Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman. And, again, we 
are so grateful. We have two Capitol policemen right near us 
today, and we are so grateful for everything that you do, not 
only defending us personally but the institution of this 
government. And, after an attack like today, we understand and 
it brings into sharp focus our gratitude. So, I want to thank 
the two who are present today. But, I also want to say my heart 
and prayers go out to all of those who were wounded and 
injured. An attack against them is an attack against our entire 
country. I do not think there is any doubt about it.
    Mr. Leiter, I have spent a lot of time with the 
counterterrorism folks because I think this is one of the 
toughest nuts to crack, which is, How do we participate in 
communities in ways that build community, build relationships, 
and prevent radicalization? I do not think anyone here would 
disagree that we kind of know the formula. But, we need 
resources to do it, and we need education and training to do 
it.
    You already for Senator Harris, I think, drew on some of 
your experiences on how things have changed. I need to 
understand your experience between 2007 and then coming out of 
it in 2011, but even going forward. How do you see the threat 
is changing? And, where have we seen best practices in 
attacking that threat?
    Mr. Leiter. The threat has changed, and I am still on the 
Advisory Board for NCTC, and I am always happy that at the end 
of my briefings I can walk out and go home and not stick around 
and have to address them all.
    The threat is significantly more challenging, I think, than 
I saw between 2007 and 2011 with possibly one exception. We 
still were worried about large-scale attacks in a way that we 
do not face in the same manner today. We were worried about 10 
planes blowing up over the Atlantic and really big attacks. 
That is the good news.
    The bad news is the scale of the radicalization that is 
occurring, the pace at which it is occurring, the independence 
with which it is occurring, so you do not necessarily see the 
same communications between domestic elements and international 
elements, which were so important for us detecting them--in all 
those ways the threat is significantly worse even if the 
likelihood of a large-scale attack is lower than it was in 
2011.
    Now, where have I seen success in combating this? First of 
all, I have seen a lot of success in the United States 
combating this. Let us pat ourselves on the back just a little 
bit. We have done remarkably well. Now, any moment you say 
that, you have to in the same breath recognize the tragedies we 
have experienced in the United States, whether it is Orlando or 
San Bernardino. And, I never mean to make light of that. But, 
we have generally been pretty effective at disrupting attacks 
before they occur and, compared to most of our Western allies, 
we have been very successful at reducing radicalization rates 
in the United States.
    If you look at radicalization in the United Kingdom, per 
capita they have a significantly higher, larger problem than we 
do. Same in Belgium, same in the Netherlands, same in France. 
And, I think we have largely done that for four reasons.
    One, our Muslim communities are vastly more integrated than 
their Muslim communities are.
    Our Muslim communities are vastly better off economically 
than theirs are.
    Our Muslim traditions tend to come from more moderate 
strains than some of the more extreme strains of Wahhabism that 
are more central.
    And, our Muslims, when they come to America--and this is 
obviously a gross generalization, but they have tended to be 
focused on being Americans, not overseas fights, as opposed to 
many in the South Asian community in the U.K. and the like who 
have stayed very focused on those issues.
    Now, we have had exceptions to that, but overall, we have 
done a pretty good job because we are Americans, not because we 
had great programs to stop it, at reducing that.
    So, where have I seen good programs? I think we have lots 
to learn still from the U.K. Prevent Program. It is deeply 
problematic in some ways, but some of the engagement with 
communities in much more aggressive ways was very important.
    I think the Dutch as well have thought about this deeply 
and have a number of social programs.
    I am hesitant to look very far at de-radicalization 
programs because those have generally been in States which have 
a set of tools and a lack of constitutional protections that we 
do not have. It is not to say that some of the Saudi programs 
on de-radicalization have not been good, but we cannot 
implement programs the way they have.
    Senator Heitkamp. So, where in the United States, what 
communities and cities?
    Mr. Leiter. I think the example of Minneapolis-St. Paul and 
the Somali community has been excellent. That community faced a 
real crisis with second-generation Somali Americans going to 
fight in a nationalistic war under the banner of Al-Shabaab. 
And, the Federal, State, local community, in part led by the 
U.S. Attorney, in part led by the mayor in Minneapolis, did an 
outstanding job. I think some of the counter-gang work which 
has been implemented and pulled into the counter-radicalization 
work in Los Angeles by the Los Angeles Police Department (LAPD) 
has been quite good.
    One small example. Right after 9/11, the Police Athletic 
League in New York added cricket to its list of sports. That is 
a good example. It is a way of making sure that communities 
that come from different traditions are not separated from 
their governments and feel like they are partners and not 
adversaries.
    Senator Heitkamp. I do not think there is any doubt that 
one of the first steps in radicalization is isolation, and the 
need to better understand--we have done a lot of work since the 
1990s on concepts called ``community policing,'' and community 
policing became the model of surge mentality in the military as 
we are looking at not fighting nation-states as much as 
fighting rogue groups.
    I think it is really interesting to think about community 
policing and those dynamics, and I am very concerned about the 
reduction in resources to local law enforcement where this has 
to happen on the ground with real resources and real commitment 
and real training to address not only the concerns that you 
would have keeping a community safe, but then the critical, 
important role that local law enforcement plays in 
counterterrorism. And so, I am deeply concerned about the cuts 
to community policing and the cuts to the anti-terrorism 
program at DHS.
    Mr. Leiter. Senator, I could not agree with you more. State 
and local police and medical and fire, all these people are on 
the front lanes. They have to understand it, and if they are 
not funded to learn it, they will not recognize it, and we will 
end up with violence after the fact.
    Let me make it a step harder, which is so much of this is 
now occurring on the Internet. As a general matter, it is not 
occurring in mosques. It is not occurring in public spaces. It 
is occurring on the Internet for individuals. And, helping 
local officials also understand that piece and then address 
that piece is something that they are not accustomed to. It is 
not regular community policing, and it is critically important.
    Senator Heitkamp. But, those are the kinds of things--we 
have seen, just for a second, when you look at what we have 
been able to do in child pornography, which has been an 
incredible model that we could adopt in this fight the child 
pornography work that is being done by the Department of 
Justice (DOJ) is, I think, a great model for the work that can 
be done here in terms of images and messages that could be 
shared broadly with all of law enforcement.
    Mr. Leiter. Absolutely. I think the National Center for 
Missing and Exploited Children (NCMEC) is widely hailed as a 
real success story. I would note that there have been 
bipartisan bills in the past, as recently as 2015, coming out 
of the Senate Select Committee on Intelligence by Chairman Burr 
and Vice Chairman Feinstein, and requiring a similar approach, 
and those have been strongly resisted. It is a complex issue, 
but I think it is one which the Senate will have to tackle.
    Senator Heitkamp. Thank you.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, first I would 
like to send my thoughts and prayers as well to all the victims 
in this morning's shooting in Alexandria. And, I think the 
Capitol Police for what you do each and every day. Thank you. 
Thank you so much.
    Today's topic is certainly a very important one. I have 
appreciated the testimony of all the witnesses today, and 
recent tragedies certainly underscore the threat posed by 
violent extremism. But, reading through some of the written 
testimonies, I became concerned about a recurrent theme of 
anti-Islamic sentiment, and certainly Muslim and Arab Americans 
serve honorably in our military and our law enforcement 
agencies and in the intelligence community. And, I will say 
that they are an incredibly important part of the social fabric 
in my State of Michigan, and that they contribute a valuable 
and necessary perspective that is critical for keeping all 
Americans safe.
    The perpetuation of anti-Islamic attitudes I believe 
undermines our collective values, and it contributes to the 
undercurrent of xenophobia that is being levied at some of 
America's ethnic and religious minorities.
    Equally troubling, such sentiment erodes positive community 
relations and feeds into the larger extremist narrative that 
the West is at war with Islam, which we are not. And, rather 
than lending legitimacy to a distorted and prejudiced view of 
Islam, we should endeavor to counter all types of extremism 
that leads to violence, regardless of who may inspire it. And, 
as a Nation, we should seek fact-based solutions that enable us 
to address all extremist threats in an adaptive and integrated 
manner.
    Mr. Leiter, my question relates to online radicalization, 
and over the last several years, we have seen improved efforts, 
as you have mentioned, by the U.S. technology companies to 
identify and shut down user accounts that espouse violence. 
Still, there are certainly inherent challenges in identifying 
content that warrants removal and that which constitutes 
protected speech. These realities and the ubiquity of the 
Internet and our robust civil rights protections suggest that I 
believe we need incremental, focused reforms rather than 
sweeping legislative changes.
    So, during your time at the NCTC, you witnessed firsthand 
the ease with which groups such as ISIS are able to leverage 
the Internet to disseminate extremist content, often branded 
with its flag and logo and hymns as well--in other words, 
contact that is really unmistakably designed to support the 
objectives of a foreign terrorist organization.
    If you could make only one recommendation to this 
Committee, what would that be in terms of your approach to 
confront the issue of ISIS propaganda on some of our popular 
social networking sites?
    Mr. Leiter. Rebuild trust between the U.S. Government and 
those technology communities, because as--we are talking about 
trust a lot here. We are talking about trust between the U.S. 
Government and Muslim communities. That is critical. There is a 
lack of trust and cooperation between many technology 
communities and the U.S. Government, and that is very 
problematic. And, I very much understand. Companies are doing 
what they are designed to do, protecting shareholder value, 
expanding shareholder value. But, we are now in a place where--
and companies have done a lot, Google, Facebook, Twitter, in 
particular, have done a lot over the past 2 years to increase 
cooperation. But, it was starting at a pretty low point because 
of the leaks of Edward Snowden and that alienation.
    We have to get back to a point where there is a cooperative 
relationship where easily identifiable features which are 
rather indisputably associated with political violence of any 
sort are rapidly reported to the U.S. Government. That is not 
what happens today. It is often removed. It is rarely reported. 
And, the U.S. Government simply does not have the means to 
monitor the Internet. It is impossible.
    So, building that trust, rebuilding that trust with people 
who are really good, smart, wonderful Americans in the Valley, 
like the general counsel (GC) at Facebook, Colin Stretch, I 
mean, these are really thoughtful people who want to be of 
assistance, and we have to figure out a way that their 
interests as companies can be protected, the privacy and civil 
liberties of people who are innocent who are using these tools 
are protected, but you still do have a rapid methodology for 
reporting instances like you suggest to law enforcement 
officials so they can start to find some of those needles in 
what is a massive haystack.
    Senator Peters. In your recent piece on Lawfare blog, you 
mentioned that the G-7 is a potential vehicle to influence 
technology companies. To what degree is the threat of online 
radicalization really going to require an international 
approach to what you have just mentioned?
    Mr. Leiter. I think the reason that Prime Minister May 
brought this up at the G-7 was because the U.K. itself probably 
did not have the market power to drive technology companies' 
behavior. So, in my view, the first thing we should do even 
before we get to the G-7 is to try to drive this between the 
United States and our companies. Otherwise, we will end up with 
international pressure on our companies, which will not be in 
the same vein as our normal constitutional protections, and 
they might find even more uncomfortable.
    So, I do think that it is inevitable that they will begin 
to see increased pressure from the U.K., Germany, France, and 
the Belgians at least on some of these issues. I do not think 
that they can withstand that pressure over time.
    Senator Peters. Well, as we are working with our companies 
here in this country, do you think there is the need for the 
United States to play a leading role in terms of defining what 
actually constitutes extremist content so that private 
companies are able to uniformly develop new terms of service 
and potentially identify violations?
    Mr. Leiter. Absolutely, Senator. That is critical because 
only when you have that clear definition--and it is probably a 
little bit easier in child pornography than it would be in this 
context. Only once you have that can you have that reporting 
mechanism that people still believe protects privacy and civil 
liberties. I do not think we can live with the Frankfurter-
esque ``I know it when I see it.'' We have to give them some 
rough boundaries, and even if it is not capturing 100 percent 
of the material we want to get down, if it captures a big 
enough percentage, it will still be of meaningful assistance in 
terms of Internet radicalization.
    Senator Peters. I appreciate it. Thank you for your 
comments.
    Chairman Johnson. Thank you, Senator Peters.
    I do want to just comment that I also fully read the 
testimony. Certainly I saw anti-Islamist terror comments in 
there. I saw anti-violence against women comments. I did not 
really see anti-Islamic. I think, quite honestly, the witnesses 
were very careful to distinguish that. I think they have been 
very careful in their verbal testimony to distinguish between 
Muslims who are practicing their faith peacefully and 
spiritually as opposed to political Islam. So, I think they are 
bending over backward trying to make that distinction, and 
hopefully we can all agree that we are against Islamist 
terrorism that incites and kills and, all kinds of areas of 
depravity.
    This has been a little unusual hearing so far. We have four 
witnesses, and all of the questions have been directed to Mr. 
Leiter. And, listen, I appreciate your expertise and your 
service to this country.
    Mr. Leiter. I am happy to step out at this point.
    Chairman Johnson. No. I want you there. But, as I have been 
watching this, I have also seen other witnesses jotting down 
notes. So, before I start a second round, I would like to 
afford or offer those witnesses an opportunity to respond based 
on your notes to basically the questions and the answers so 
far, and I will start with Dr. Lenczowski.
    Mr. Lenczowski. Thank you, Senator. In all of this 
discussion, we have not talked about the war of ideas. We have 
not talked about the fact that the animating force behind 
radical jihadism is a moral attack on the United States and the 
West and our culture. And, there are things that we can say in 
response to this, and this is not something that can be 
developed particularly at the local law enforcement level. This 
has to be done by national leaders who are the representatives 
of the American people at the highest levels where such things 
as a human rights campaign can be launched.
    One of the most effective things that is being done right 
now in the online war is done by a very small organization 
called ``Good of All.'' It is dedicated to fighting against 
radical jihadism and in a radicalization prevention operation 
by standing for and promoting the Universal Declaration of 
Human Rights as an alternative set of ideals, as an idea virus 
that can capture the imagination of the new generation of so-
called digital natives, the younger generation who are fluent 
with computers and cell phones and social media and the like. 
And, this has taken some of this effort, which is barely funded 
at all by--it is privately funded, has managed to catch fire in 
different parts of the world. Millions of hits in Egypt, for 
example, on the work of this organization where Egypt was not 
even particularly targeted, but this was the natural course.
    Senator Peters mentioned earlier that we are not at war 
with Islam. Well, one of the biggest arguments of the jihadists 
is that, in fact, the West is at war with Islam. And, sound 
arguments have to be made that this is not the case and that we 
are opposing a certain kind of radical political ideology.
    I am also concerned here that much of this conversation is 
focused on the question of terrorism and not on the question of 
trying to establish basically a totalitarian, theocratic form 
of government. Sharia law may not have made the kind of inroads 
in American society that it has in other parts of the world. 
But, if you look in Europe--and, European countries have plenty 
of enclaves that have established parallel structures, parallel 
track for Sharia law, and there are cases in U.S. courts when 
it comes to family law where a Muslim man may marry an American 
woman; they will have children. The man can then make his 
proper Muslim declaration of divorce, and then Sharia family 
law has triumphed in cases like this where the husband can take 
the children off to Saudi Arabia and the American mother will 
never see those children again.
    I am not an expert on all of that particular stuff, but I 
have read enough about it to know that such things exist and 
that the parallel track for Sharia law has established a very 
good foothold in a number of European countries.
    I think that we have to be making it very clear that 
insofar as there are those who want to try to establish a 
political order in this country that is at variance with our 
constitutional freedoms, this has to be opposed. And, it is 
being done under the shroud of religion, under the protection 
of religious freedoms. But, in fact, it is a political movement 
that is at variance with the Constitution of the United States. 
I think we have to be vigilant about this, and I think we have 
to make the proper moral arguments at the highest levels of 
this government that can both inspire those who would be 
radicalized to take a different path and to alert so much of 
the country about what the intentions are of certain kinds of 
people, which is not just violence but it is the establishment 
of an unconstitutional order in this country.
    Chairman Johnson. Good. Thank you. Ms. Nomani.
    Ms. Nomani. Yes, Senator, I have a 14-year-old son, so I 
watch a few science fiction movies once in a while. And, we 
oftentimes see the monster flailing, and we can take this 
approach that we try to address every place where that monster 
hits, from San Bernardino to Orlando to London to Dhaka to 
Kabul. Or we can go to the heart of what is controlling that 
monster. And, what that is is an ideology of extremism that 
everybody on this panel has acknowledged.
    I have lived on this Earth and seen this ideology take root 
in communities from my hometown of Morgantown, West Virginia, 
to Northern Virginia, to the rest of the world. The heart of 
this sits in propaganda machines that are churning out this 
dawa of extremism. Those propaganda machines are in Qatar, in 
Iran, in Saudi Arabia, and all of their proxies.
    Senator McCaskill, you said language matters, and as you 
said, Senator Johnson, we do have rules, contracts in this 
country when you incite violence, when you lead people to 
violate our U.S. laws. Amazon sent me overnight this book, 
``Woman in the Shade of Islam,'' that outlines how a man can 
beat his wife. It was first delivered to me at my mosque in 
Morgantown, West Virginia, by the Muslim Students Association. 
Ideas matter. Words matter. We have to get at the heart of the 
ideas that are then leading people to violence.
    We are on a conveyor belt. We should not just look at all 
of these incredible programs that are dealing with people once 
they become violent. We need to address the ideas that take 
them on that conveyor belt to that radicalization, and that is 
why I believe also that our Internet companies are failing us, 
unfortunately. Amazon.com brought me this how-to book on how to 
beat a wife. GoDaddy in Phoenix, Arizona, hosts a website 
called ``AlMinbar.'' I invite anyone to go there and use the 
search engine and just look up the word ``Jew'' and see how 
many ways they say that Jewish people should be murdered. They 
host the website of Hizbut Tahrir, the Islamist organization 
based in Northern Virginia and Chicago that wants an Islamic 
State.
    We are not doing enough to police these bad ideas. These 
are ideas that are not protected simply by our free speech 
rights in America. They are ideas that incite violence. We 
stand together against white supremacists. We should stand 
together against Muslim supremacists. They exist, as all of the 
members of our panel have agreed upon, and unless we go to the 
heart of the problem, we will continue to be fighting terrorist 
acts for the generations to come. We have to dismantle the 
network of these bad ideas that are being put forward into the 
minds and hearts of young people, and we have to do it today. 
We have to investigate, we have to dismantle, and we have to 
put forward exactly the positive ideas.
    In the Muslim reform movement, our ideas are for secular 
governance, for peace, for human rights, including women's 
rights, consistent with the U.N. Declaration of Human Rights. 
We have to put forward the good ideas and shut down, eliminate, 
and take from this Earth these bad ideas either through our 
relationships with these countries that are putting forward 
these ideas or by any means that we are able to then stop the 
promotion of those ideas into the minds of our young people.
    Thank you.
    Chairman Johnson. Ms. Hirsi Ali.
    Ms. Hirsi Ali. Mr. Chairman, I would like to go back to the 
big picture, and listening to Mr. Leiter, Mr. Leiter, I think 
you in your capacity working in the government, you have worked 
very hard, and I really appreciate that. But, I want to 
evaluate--if we reflect on how this government has performed 
since September 11, 2001, and how other Western governments 
have performed, my evaluation would be we have failed. We have 
these small programs that, if you look at the big picture, look 
like small drops in the ocean. We have spent trillions of 
dollars. We have waged wars since 9/11. The Islamists, the 
radicals, whatever name you choose to call them, they have 
grown exponentially. Their sympathizers, the agencies, the 
money, the funding that they get, all of that has grown 
exponentially since 9/11.
    If our posture on September 11, 2001, was we are going to 
take the wall to them and we are going to stop this evil, in 
2017 we can barely say that we have stopped that. It has 
doubled, tripled, in some places it has quadrupled. We have 
completely failed to define the enemy, and because we have 
failed to define the enemy, we are flying blind.
    Our ambition cannot be we are going to develop all of these 
programs to stop or to limit the consequences of the next 
attack. In 2001, it was we are going to stand for no attack at 
all. If you look at some of the other countries, I am really 
worried--and I think we do not have the sense of urgency here--
worried about some of these European countries. Do you realize 
that France is in a state of emergency since November 13, 2015? 
Germany has closed some mosques. Radical right-wing groups in 
Europe are on the rise as they have never been. I have lived in 
Holland for 14 years, and when I came, there was a very small 
radical right-wing group, and today it is the second largest 
party.
    In Britain, after this attack in London, the authorities 
said there were 3,000 people they were surveiling, but there 
are 20,000 other people at large.
    It is absolutely true that when it comes to mounting large-
scale attacks, we have made it very difficult for them to do 
that. And, they may not succeed, and I hope they do not 
succeed. But, when it comes to entering the minds of human 
beings and turning them into live missiles against us because 
they promised them a hereafter that is fantastic, in that sense 
we have failed. And, in that sense, because we do not get to 
the ideology, we do not want to talk about this problem, we are 
now seeing thousands and thousands of men, and increasingly 
women, who are prepared to use anything as a weapon--their 
cars, their knives, etc. And, it is very easy for us to say, 
and convenient maybe, to say this is happening online. But, 
that is not entirely true. It is still happening in the 
mosques. After the recent attacks in Brussels, in Germany, in 
France, mosques have been raided and closed. It is happening in 
people's living rooms. It is happening in schools.
    What exactly is happening? It is what I call ``dawa 
activities.'' It is an evangelization that is carried out by 
Muslims who accentuate the political-military doctrine that 
they are raised with, and they are using that doctrine to turn 
people's heads and minds away from the principles--Senator 
Harris just left, but she said what we thought were universal 
decency. That is what their minds and hearts are being turned 
away from, and their minds and hearts are being turned away to 
the idea that you are doing God's work, Allah's work, to kill 
people, to maim, to repress, and to bring down societies. It 
has not happened in the United States. It has not yet happened 
in Europe. But, there are, in fact, countries in Africa that 
have been brought down, countries in the Middle East that have 
been brought down. And, I think we need to bring to this 
discussion--I know this is the Homeland Senate Committee and we 
do not speak for the entire government, but I do not think we 
should walk away this afternoon when we are done with the idea 
that there is no sense of urgency. There is a great deal of a 
sense of urgency, and between 2001 and today we have failed, 
and we have failed miserably, and it is time to correct our 
course.
    Chairman Johnson. Thank you, Ms. Ali. And, by the way, I 
completely agree that we should not be penny wise and pound 
foolish. Again, the purpose of this hearing is to define the 
problem, admit we have it, so the resources we do spend--I 
mean, you do not start with resources. You start with the 
definition of the problem. And, again, what I am hearing is, 
quite honestly, a great deal of agreement in terms of what it 
is. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman, Ranking Member 
McCaskill, and thank you all for testifying.
    The ideology of violent and radical Islamic extremism is a 
challenging topic, and it certainly takes moral, political, and 
at times physical courage to speak up.
    As we reflect on and learn from these recent terror 
attacks--Paris, London, Manchester, Egypt, St. Petersburg, 
Istanbul--in fact, 1 year ago this week since the lone-wolf 
attack in Orlando--we cannot allow fear to disrupt our daily 
lives or our liberty. We must remain vigilant about the growing 
threat of Islamic extremism and work to extinguish the 
proselytization of violence and prevent future tragedies.
    I want to direct some questions here regarding the freedom 
of religion. Everyone in their testimony made mention of it, 
and that is, we are not at war with or opposing a certain 
religion. What we are at war with is an ideology and violence 
that threatens our free society and the liberty of every 
individual.
    Ms. Nomani, as a Muslim American, how do we reassure the 
freedom of religion while pushing back on dawa and violence 
carried out in the name of religion?
    Ms. Nomani. Senator, thank you for the question. My family 
comes from India, and in India, Muslims are a minority 
population. The Islam that I learned from my parents was one in 
which we accepted the values of the society and secular 
governance. That was what my parents taught me.
    The values of Islamism are ones in which there is a sense 
of superiority to anybody else's world order. The history of 
how we got here is rooted in the last 100 years. The 
dismantling of the Ottoman Empire brought with it dreamers who 
wanted to create a new Islamic State. And so, some of those men 
had names like Sayyid Qutb, Maulana Maududi. Those men created 
movements like the Muslim Brotherhood, Jamaat-e-Islami, 
Tablighi Jamaat. They are the ones that Ayaan is talking about 
in terms of the dawa that they have done.
    When my father came here in the 1960s, he got a ticket to 
Manhattan, but it was Manhattan, Kansas, because like a lot of 
Indian immigrants, he was given a ticket to the heartland of 
America. And, he loved this country and the values. He loved 
the dignity of labor that he saw by the professors.
    Sayyid Qutb, meanwhile, came here to this country, and he 
came to Colorado, and he hated this country. He hated the 
freedoms that women get in this country. And so, how do we 
protect Muslims and how do we resist that Islamist movement? It 
is, in my estimation, by differentiating that Islamist movement 
from Muslims and isolating it, marginalizing it, blacklisting 
it, taking down their websites. This is how I think that we 
have to create an image and a vision of Islam that is 
compatible with the 21st Century, that is compatible with the 
West, that is compatible with the United States.
    You come from a State that is the heartland of America. You 
believe in the same type of values that my parents taught me to 
believe. And, it is that kind of universality that has to drive 
us, and we have to recognize that there are people in all 
communities, including in our Muslim community, who do not 
share our universal values.
    Senator Daines. Thank you. In your testimony, you mentioned 
the role that social media companies are playing in blocking 
terrorist material. As a society here in the United States, we 
encourage the free flow of information and ideas, but there are 
limits.
    Ms. Nomani. Right.
    Senator Daines. This platform has enabled reward for 
illegal and oftentimes gruesome actions, and it must stop.
    Now, I spent 12 years in the cloud computing business and 
software business, and I fully appreciate the challenge and 
commitment to maintain reputable platforms. Twitter announced 
they suspended over 635,000 accounts for promoting extremism 
since 2015. But, how can governments and Western society 
augment the tech companies' efforts?
    Ms. Nomani. So, to me, we have to make a moral decision 
that we have a right to speak up and against any form of 
extremism, even when it comes in the name of religion. We 
should not give Muslim extremists a pass because they are 
expressing religion. We should not give them a pass because we 
are afraid of offending Muslims. We have to use the same 
standards that we apply to all of society against the Muslim 
supremacists that want to control our country.
    When I was doing research for this testimony, I looked up 
the terms of service that GoDaddy has, that Facebook has, that 
YouTube has. There are so many operators, as you know, who are 
violating those terms of service by preaching hate against 
Jews, against gays, from within my Muslim community. And so, I 
feel it is my obligation as a Muslim to say we cannot allow 
that to exist. And, we have a ``See something, say something'' 
verse in the Qur'an. It says, ``Bear witness to injustice, even 
if it is by your own kin.'' And so, in that way, I believe that 
the social media companies actually have to have the moral 
courage to police these Muslims who are also practicing hate.
    Senator Daines. Thank you.
    I want to turn to Dr. Lenczowski. Based on your expertise, 
how do we get platforms outside the United States to get 
serious, like Twitter and Facebook have, about removing 
inappropriate content?
    Mr. Lenczowski. During the Cold War, we had the U.S. 
Information Agency that got information out about the United 
States in the face--to counter the falsehoods about anti-
American--of anti-American propaganda. We had information 
policies. We had America houses, for example, in Germany where 
there could be good public policy debate about these issues.
    We had all sorts of educational, cultural, and other kinds 
of exchanges, visitors' programs. So, many people abroad have a 
caricature view of the United States as fast cars, skyscrapers, 
dishonest businessmen, all surrounded by pornography. And, 
people do not see the work of small-town America, of 
churchgoing America, of the charitable work and volunteer work 
that is done in this country, the kind of things that can melt 
people's hearts rather than incite hatred. We need to be 
telling--we need to be portraying our country much more 
accurately to the world.
    The last couple of administrations have been gradually 
shutting down the Voice of America. It is a crime. The Voice of 
America during the Cold War, along with Radio Free Europe and 
Radio Liberty, were described by the great Russian author 
Alexsandr Solzhenitsyn as ``the most powerful weapons'' we 
possessed in the Cold War because we broadcast information, we 
broadcast the truth, we broadcast ideas, we gave people 
accurate history when their history was being erased by 
totalitarian regimes. Radical Islamist regimes do that kind of 
thing, too, a complete mischaracterization of historical facts.
    So, that is some of the open public diplomacy that can be 
done. And, by the way, public diplomacy has been completely 
neglected by our government. It is, I believe, the most cost-
effective instrument of American power in the world. I will 
even argue that public diplomacy was the decisive element to 
have brought down the Soviet Empire, but I do not think most 
people in the foreign policy community understand that.
    But, then there is the covert side of it, which I think is 
equally important. As Mr. Leiter said, the U.S. Government does 
not have much credibility in talking about religious and 
theological matters. I think that, however, there are people 
who do have credibility talking about these things, and the 
U.S. Government can magnify their messages.
    For example, there are doctrines within radical Islamism 
that say that Allah wills everything, and that means he wills 
the rape of the 12-year-old girl and he wills the cholera 
epidemic in Pakistan. Does Allah really will evil? Is that 
really so? Is it Allah's will that somebody should go out and 
kill innocents? Are you going to go to heaven for killing 
innocents? Or perhaps are you going to go to hell? Is it a 
Satanic thing to do?
    This is language that perhaps U.S. Government 
representatives cannot use, but it is language that can be put 
on programming, for example, on, say, the Voice of America, 
whether it is radio or television, or whatever, where there are 
discussions about these things.
    And then, there is the covert side of things. During the 
Cold War, we had Frank Wisner's ``Mighty Wurlitzer,'' 
newsletters, newspapers, journals of opinion, broadcast 
stations, organizations, the Congress for Cultural Freedom, all 
sorts of things like this that were designed to fight the war 
of ideas against communism and were remarkably effective at 
doing this. And, people wrote for those journals without even 
knowing where the money came from. The money came from some 
foundation somewhere, but it was U.S. Government money after a 
few cutouts. So, there are many such things.
    Senator Daines. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Daines.
    I just have one further question here. I think part of the 
reason I wanted to hold this hearing is, again, to explore this 
concept of something other than just jihad, the dawa, and the 
use of potentially what looks like in many cases maybe benign 
organizations, but maybe not. And, I just want to ask Mr. 
Leiter, to what extent have we really followed the money trail 
in terms of money being diverted from charitable works to not 
charitable works? Let us put it that way. And, how much more 
work do we have to do on that?
    Mr. Leiter. Senator, a foundational point. I think 
following the money is very important. I think in terms of the 
overall counterterrorist effort, again, important but pretty 
small. And, what we are seeing in many of the attacks, at least 
domestically, funding is about the least important thing there.
    Now, certainly when we talk about larger organizations 
overseas, whether it is Hamas or Al-Shabaab or other 
organizations, you are in a different context. But, in the 
United States, that funding piece is, I think, less important.
    Second, I do think that the FBI, Department of Treasury, 
the intelligence community writ large--National Security Agency 
(NSA), CIA--actually do a fantastic job today about pieces of 
this. So, first of all, in terms of identifying the money and 
using that as a tool to identify who the people are and then 
pursuing them, either through covert action or law enforcement 
or elsewhere.
    The second piece of actually stopping the broader flows 
from charitable organizations to bad pieces is admittedly 
probably the most difficult piece here. I think we have done 
pretty well with established organizations--Hamas, Hezbollah. 
The FBI has done a tremendous amount of work on smuggling of 
tobacco and other things, pursuing that money in these large 
organizations.
    It gets much more difficult for the U.S. intelligence 
community and I do not think we have done as well the more 
diverse those networks become when you are dealing with smaller 
charities, individual hawalas. That gets really difficult. And 
so, I think it is something that we have to continue pursuing. 
It is worthwhile. There is a return on that investment. Again, 
this is penny wise, pound foolish. We have to support this 
because it does not cost a lot. And, it is also an important 
way, if done well, again, to build partnerships with the 
community, to talk about the charities that are doing good 
work, but then not alienate the community when you shut down a 
charity because some of the money has gone to bad things. And, 
the Muslim community, like every other community, has to 
understand that just because they think a charity is good, some 
of that money may, in fact, be diverted to very bad things. 
And, if the U.S. Government takes legal action against that 
charity, again, it is not a war against Islam. It is a war 
against certain elements funding things that are contrary to 
U.S. law and principles.
    May I have one--just very quickly, Senator. Much of what 
this panel said I do agree with. I absolutely--again, I want to 
echo the good doctor's points--I am just calling him ``the good 
doctor'' now because I am not trying with the last name. But, I 
want to echo the good doctor's points on the lack of funding 
more broadly for public diplomacy and engaging this 
ideologically. What I want to stress is it has not been 
aversion to the discussion because it is so uncomfortable. It 
has not been due to some political correctness that people say, 
``Oh, boy, we better not call it `Islamic extremism.' '' It has 
been actually deep thought about what the right language is, 
what the problem is. And then, I think--and I hate to say this, 
but Congress bears responsibility for this as well--a lack of 
strategic vision and funding for programs in a global, robust 
way to match the many fantastic military, intelligence, law 
enforcement people that we have funded. That to me, if we can 
come out of this hearing with a commitment both domestically 
and internationally to do that with our partners, in 
partnership, and to make our Executive Branch officials 
speaking about this problem in a way that does not alienate the 
partners, this will be more than worth its salt.
    Chairman Johnson. Well, again, I appreciate your testimony. 
I agree wholeheartedly we should not be penny wise and pound 
foolish in terms of resourcing, but it starts with the proper 
definition of the problem, admitting reality, not denying any 
reality, understanding how, I do not like this reality we are 
dealing with, but we have to deal with it. The U.S. 
Constitution does not have to be a suicide pact. We have to 
recognize that.
    I want to thank all the witnesses. I would encourage all 
the Senators, all the members of the audience, read the full 
testimony of all the witnesses. I think that is probably a 
pretty good start. So, again, thank you all for your courage, 
for your time, for your testimony.
    This hearing record will remain open for 15 days, until 
June 29th at 5 p.m., for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
